REPORT ON INTERNAL CONTROLS OVER
     PERFORMANCE MEASURES
 REPORT NUMBER: A070007/B/F/F07004
         NOVEMBER 2, 2006
We conducted this review in accordance with generally accepted government
auditing standards, as well as the provisions set forth in the Office of
Management and Budget Bulletin No. 06-03, Audit Requirements for Federal
Financial Statements, related to performance measures.

Results of Audit

We found the design and operation of internal controls over performance
measure data reported in the Management Discussion and Analysis Section of
the Agency’s Fiscal Year 2006 Performance and Accountability Report are to be
effective.

In Fiscal Year 2005, GSA Order CFO 2170.1, “Performance Measurement Data
Verification and Validation Procedures,” was issued, requiring a cyclical review of
the performance measure data reported by each Service and Staff Office. Our
review found that in accordance with this Order, the OCFO performed and
documented the required review of performance measure data, and that the
conclusions therein were adequately supported.

We would like to thank the staff of the Office of the Chief Financial Officer for the
assistance provided during our review. Should you or your staff have any
questions, please feel free to contact me directly or the audit manager for this
review, Anthony Mitchell, on (202) 501-0006.




                                         2
                       Report on Internal Controls Over
                            Performance Measures
                      Report Number: A070007/B/F/F07004
                              November 2, 2006


Report Distribution                                       Copies

Administrator (A)                                            3

Chief Financial Officer (B)                                  3

Audit Follow-Up and Evaluation Branch (BECA)                 1

Acting Assistant Inspector General for Auditing (JA)         2

Assistant Inspector General for Investigation (JI)           1




                                         3
